INFORMATION SECURITY PROGRAM
   National Transportation Safety Board

      Report Number: FI-2004-097
    Date Issued: September 28, 2004
U.S. Department of                                                Office of Inspector General
Transportation                                                    Washington, D.C. 20590
Office of the Secretary
of Transportation



September 28, 2004

The Honorable Ellen Engleman Conners
Chairman
National Transportation Safety Board
490 L’Enfant Plaza, SW
Washington, DC 20594

Dear Chairman Engleman Conners:

This report presents the results of our audit of the information security program at
the National Transportation Safety Board (NTSB). The Federal Information
Security Management Act (FISMA) of 2002 requires each agency to develop,
document, and implement an agencywide information security program to protect
the information and information systems that support the operations and assets of
the agency. FISMA also requires 24 large Federal agencies to report annually to
the Congress on their information security programs. This year the Office of
Management and Budget (OMB) expanded FISMA reporting requirements to all
departments and agencies that are subject to the Paperwork Reduction Act of
1995, including NTSB.

NTSB is responsible for investigating accidents in all transportation modes to
determine the cause and recommend changes to improve safety and reduce the
likelihood and consequences of future accidents. NTSB plays a critical role in
ensuring a safe transportation system. To support its investigation operations
nationwide, NTSB has implemented an information technology (IT) infrastructure,
including communication networks, computer laboratories, and various software
application systems, to support NTSB’s Headquarters, 10 regional offices, and the
NTSB Academy. This IT infrastructure enables NTSB’s investigators to gather
accident evidence, analyze information from voice and data recorders, assist
victims’ family members, and provide accident investigation results to the
American public. NTSB invests about $2 million to $3 million annually in IT
system operations.




Report No. FI-2004-097
                                                                                 2


Responding to requirements of FISMA, the Department of Transportation Office
of Inspector General performed an audit of the NTSB’s information security
program. Our objectives were to (1) evaluate the effectiveness of NTSB’s
information security program, and (2) provide input to NTSB’s annual FISMA
report by answering questions specified by OMB.

Since this is the first year that NTSB has been asked to implement the FISMA
requirements, we focused our audit on the overall adequacy of the information
security program and network security. The audit was conducted in accordance
with Government Auditing Standards prescribed by the Comptroller General of
the United States. We plan to do a more detailed evaluation during fiscal year
(FY) 2005. Our input to NTSB’s annual FISMA report is in Enclosure 1. Our
scope and methodology are described in Enclosure 2.

Results in Brief
NTSB has installed firewall security to protect its IT infrastructure against cyber
attacks from the Internet and is using a swipe card system to control physical
access at the Headquarters. However, we found that NTSB’s network computers
are vulnerable to unauthorized access by insiders as a result of a lack of an
agencywide information security program.

FISMA requires each agency, through the Chief Information Officer (CIO), to
implement an agencywide information security program to protect the information
and information systems that support the operations and assets of the agency. To
effectively implement this program, agencies need to develop and implement
security plans and maintain a system inventory. As part of its responsibilities
under FISMA, OMB also requires agencies perform security certification review
on their information systems. However, we found that none of the following
requirements had been implemented at NTSB:

      Ø   Designating an agency CIO, or equivalent, responsible for the
          implementation of an agencywide information security program;

      Ø   Establishing a system inventory of major information systems;

      Ø   Developing security plans in accordance with the National Institute of
          Standards and Technology guidance;

      Ø   Requiring information systems be certified as adequately secured
          commensurate with operational risks before accreditation for business
          use; and




Report No. FI-2004-097
                                                                                                                  3


           Ø    Documenting security weaknesses and corrective actions in the Plan of
                Action and Milestones, as required by OMB.

Using commercial scanning software, we performed a vulnerability assessment on
NTSB private networks and the firewall server. Our assessment showed that the
firewall is reasonably configured to prevent unauthorized access from the Internet.
Due to time constraints, we did not perform a complete review of the firewall
security capabilities. We plan to perform a more detailed review of NTSB’s
firewall security in FY 2005. However, we found NTSB systems and data are
vulnerable to insiders—we identified over 250 high-risk, 460 medium-risk, and
4,500 low-risk vulnerabilities on NTSB network computers.1 All the high-risk
vulnerabilities we identified were on the “Top Twenty Vulnerabilities List” jointly
developed by the SANS Institute and Department of Homeland Security. These
vulnerabilities could allow insiders—NTSB employees, contractors, and business
associates—to gain unauthorized access to NTSB business information stored on
these computers.

For example, with these vulnerabilities, we were able to gain total (root-level)
control of 28 NTSB computers, including a computer in the Chairman’s Office.
We could have changed computer configurations, installed virus software, or
deleted all files on the computers. In fact, we did obtain substantial sensitive
information from these computers, such as:

               Ø NTSB payroll data that list the annual salaries and social security
                 numbers of NTSB employees, including the Chairman and Board
                 members;

               Ø Internal documents on preliminary investigation issues; and

               Ø Personal information including employee’s birth dates, home
                 addresses, and credit card numbers.

Our network activities went undetected because NTSB has no intrusion detection
and monitoring capabilities.

The lack of an agencywide information security program puts the integrity,
confidentiality, and availability of NTSB business operations at risk, as we
demonstrated. In our opinion, this constitutes a significant deficiency and should
be reported as a material internal control weakness to OMB and Congress under
the Federal Managers’ Financial Integrity Act of 1982.
1
    High-risk vulnerabilities may provide an attacker with immediate access into a computer system, such as allowing
    execution of remote commands. Medium-risk and low-risk vulnerabilities may provide an attacker with useful
    information, such as password files, they can then use to compromise a computer system.


Report No. FI-2004-097
                                                                                  4


NTSB has demonstrated a strong commitment to strengthen its information
security practices. During the last quarter of FY 2004, NTSB began to develop a
system inventory, started to provide security awareness training to employees, and
provided specialized training to 40 percent of its employees with significant IT
security responsibilities. Responding to a draft of this report, the NTSB Chairman
agreed to take immediate actions to eliminate the high-risk and medium-risk
vulnerabilities we identified. The NTSB Chairman also agreed to implement our
recommendations by appointing a CIO and implementing an effective information
security program in FY 2005. These corrective actions, when fully implemented,
will establish a solid foundation for an effective information security program that
will enhance the integrity, confidentiality, and availability of NTSB information
system operations.

FINDING AND RECOMMENDATIONS

NTSB Needs To Implement an Agencywide Information Security
Program
FISMA requires each agency, through the CIO, to implement an agencywide
information security program to protect the information and information systems
that support the operations and assets of the agency. To effectively implement this
program, agencies need to develop and implement security plans and maintain a
system inventory. As part of its responsibilities under FISMA, OMB also requires
agencies perform security certification review on their information systems.
However, we found that none of these requirements had been implemented at
NTSB.

NTSB does not have an agency CIO. The Director of the Office of Research and
Engineering has assumed limited CIO responsibilities for managing IT resource
and providing information security to NTSB networks and computer systems.
However, this official was not given clear authority and responsibility to develop
and maintain an agencywide information security program, including effective
implementation of security policies, procedures, and control techniques. Further,
NTSB did not:

      Ø   Have an inventory of all the information systems used to support its
          operational needs;

      Ø   Develop security plans for protecting its information systems, which
          should address rules of behavior for system use, training requirements
          for security responsibilities, personnel controls, technical controls,




Report No. FI-2004-097
                                                                                                                   5


              continuity of operations, incident response capabilities, and system
              interconnections.2

         Ø    Require information systems be certified as adequately secured
              commensurate with operational risks before accreditation for business
              use; and

         Ø    Document security weaknesses and corrective actions in the Plan of
              Action and Milestones, as required by OMB.

In response to our audit, NTSB has agreed to appoint a CIO and assign a priority
to implementing an effective information security program in FY 2005.
Specifically, NTSB has initiated an inventory of the information systems used by
various offices to support their business operations, agreed to develop a security
plan for each system, establish a target date to have all information systems
undergo security certification reviews, and document security weaknesses and
corrective actions as required by OMB.

NTSB Needs To Strengthen Network Security To Prevent
Unauthorized Access by Insiders
In addition to publishing the final accident investigation results on its public
websites, NTSB uses its private network to support investigation work, such as
analyzing information from voice and data recorders, storing information
concerning victims’ family members, and processing payroll and personnel
information. This private network can be accessed by authorized users at NTSB
Headquarters and regional offices or from a remote location through telephone
line (dial-up) connections.

To protect its private networks, NTSB has installed firewall security as the
first-level defense against cyber attacks from the Internet and password security
over remote access through telephone line connections. Using commercial
scanning software, we performed a vulnerability assessment on NTSB private
networks and the firewall server. Our assessment showed the firewall is
reasonably configured to prevent unauthorized access from the Internet. However,
we found that NTSB networks are vulnerable to unauthorized access by
insiders—NTSB employees, contractors, and business associates.

Specifically, we identified a total of 5,309 (256 high-risk, 461 medium-risk, and
4,592 low-risk) vulnerabilities on 719 NTSB network computers. All the
high-risk vulnerabilities we identified were on the “Top Twenty Vulnerabilities

2
  National Institute of Standards and Technology Special Publication 800-18, “Guide for Developing Security Plans for
Information Technology Systems,” December 1998.




Report No. FI-2004-097
                                                                                   6


List” jointly identified by the SANS Institute and the Department of Homeland
Security. A summary of the scanning result is shown in the table.


                  Table. NTSB Network Scanning Results
                          Vulnerabilities Found        Total         Computers
           Location
                         High   Medium       Low   Vulnerabilities    Scanned
        HQ Networks      189      360      1809         2358            493
        Field Networks    67      101      2783         2951            226
         Total           256      461      4592         5309            719



While scanning the NTSB networks, we gained total (root-level) control of
28 computers, including a computer in the Chairman’s office. With this level of
control, we could have changed computer configurations, installed virus software,
or deleted all files on the computers.

In fact, we were able to copy substantial information from these computers, such
as NTSB payroll data that list the annual salaries and social security numbers of all
NTSB employees, including the Chairman and Board members; internal
documents on preliminary investigation issues; and identifiable personal
information, including employee’s birth dates, home addresses, and credit card
numbers.

NTSB management was not aware of the existence of these vulnerabilities because
NTSB has not obtained the proper tools and trained personnel to periodically scan
its networks for protection. Also, our network activities went undetected because
NTSB has no intrusion detection and monitoring capabilities that can detect
abnormal activities on its private networks.

These network vulnerabilities existed due to inadequate configuration controls and
patch management. NTSB did not meet the Government security configuration
requirements for its computers. For example, among the 28 computers that we
took control over, 24 of them required no passwords for the system administrator
account, and the other 4 used passwords that could be easily guessed, such as
“password.” We also found NTSB has not established a procedure to promptly
install software patches as required by OMB. For example, we found 14 critical
software patches released by a manufacturer had not been installed on NTSB
computers. Installing these patches could have easily eliminated 20 percent of the
high-risk vulnerabilities we identified.

NTSB is taking actions to fix the high-risk and medium-risk vulnerabilities and is
reviewing the remaining ones. In addition to strengthening network configuration


Report No. FI-2004-097
                                                                                   7


controls and patch management, NTSB also needs to establish vulnerability
scanning and intrusion detection capabilities to protect its network computers
against unauthorized access.

As we demonstrated, the lack of an agencywide information security program puts
the integrity, confidentiality, and availability of NTSB business operations at risk.
In our opinion, this constitutes a significant deficiency and should be reported as a
material internal control weakness on the annual Federal Managers’ Financial
Integrity Act report to OMB and Congress.

RECOMMENDATIONS
A. We recommend that the NTSB Chairman:

   1. Designate a Chief Information Officer to enhance the information security
      management practice in NTSB.

   2. Direct the Chief Information Officer to implement an agencywide
      information security program by December 31, 2004, that includes:

       a. Providing security awareness training to all employees and specialized
          training to employees with significant IT security responsibilities,

       b. Completing an information systems inventory,

       c. Establishing a schedule to complete system security certification
          reviews of all systems,

       d. Providing guidelines to system owners for developing and
          implementing security plans to address security requirements and
          responsibilities for NTSB networks, facilities, and systems or groups of
          information systems, and

       e. Documenting security weaknesses identified and corrective actions
          taken in accordance with OMB guidance.

   3. Direct the Chief Information Officer to enhance NTSB network security by:

       a. Correcting all high-risk and medium-risk vulnerabilities we identified
          by December 31, 2004.

       b. Ensuring network computers are properly configured in accordance with
          Government standards and developing procedures to ensure timely
          installation of software patches by March 31, 2005.




Report No. FI-2004-097
                                                                                 8


      c. Obtaining proper tools and training personnel to periodically scan
         networks for potential vulnerabilities and deploying an intrusion
         detection capability to monitor network traffic for abnormal activities by
         June 30, 2005.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL ANALYSIS
A draft of this report was provided to the NTSB Chairman for comments on
September 20, 2004. The Chairman responded on September 22, 2004, and
concurred with all recommendations (see Appendix). The actions planned by
NTSB are reasonable and should provide a solid foundation to implement an
effective computer security program. We will continue monitoring NTSB’s
progress in implementing these recommendations.

We appreciate the courtesies and cooperation of National Transportation Safety
Board representatives during this audit. If you have any questions concerning this
report, please call me on (202) 366-1992 or Theodore P. Alves, Assistant
Inspector General for Financial and Information Technology Audits, at
(202) 366-1496.

Sincerely,




Alexis M. Stefani
Principal Assistant Inspector General
 for Auditing and Evaluation

Enclosures (3)




Report No. FI-2004-097
                                                                      Enclosur e 1
                                                                                 9


Enclosure 1. Office of Inspector General Input to FISMA Report

FY 2004 marks the first time that NTSB needs to comply with FISMA, which
requires independent evaluation of agencies’ information security programs.
Accordingly, the Department of Transportation Office of Inspector General
performed a review of NTSB’s information security program. NTSB’s key
missions are investigating accidents in all transportation modes, determining the
causes, and making recommendations to improve safety. It has implemented an IT
infrastructure, including communication networks, computer laboratories, and
various software application systems, to support operations at NTSB
Headquarters, 10 regional offices, and its Academy. NTSB invests about $2
million to $3 million annually in IT system operations.

Unlike the 24 large Federal agencies that first had to comply with FISMA, NTSB
does not have a Chief Information Officer responsible for IT management and
security. We also found that NTSB has not implemented an agencywide
information security program, including establishing a system inventory,
conducting system security certification reviews in accordance with the National
Institute of Standards and Technology guidance, and developing security plans. In
other words, when compared with large Federal agencies, NTSB is in an early
stage of complying with FISMA requirements. Our answers to OMB questions
reflect the fact that NTSB is in the early stage of implementing an IT security
program.

Our independent evaluation also identified vulnerabilities in NTSB’s networks,
which enabled us (acting as an insider) to gain unauthorized access to sensitive
information such as employees’ salaries, social security numbers, home addresses,
and credit card numbers, as well as preliminary accident investigation results. In
our opinion, NTSB’s information security program constitutes a significant
deficiency and should be reported as a material internal control weakness to OMB
and Congress under the Federal Managers’ Financial Integrity Act of 1982.

NTSB has demonstrated a strong commitment to strengthening its information
security practices. During the last quarter of FY 2004, it made an effort to develop
a system inventory, started providing security awareness training to employees,
and provided specialized training to 40 percent of its employees with significant
IT security responsibilities. The NTSB Chairman also agreed to implement the
recommendations specified in our independent evaluation report. These corrective
actions, when fully implemented, will enhance the integrity, confidentiality, and
availability of NTSB information system operations. We plan to conduct a
detailed review of NTSB’s implementation efforts and will include the results in
next year’s FISMA report.

Report No. FI-2004-097
                                                                                                       Enclosure 1
                                                                                                               10




                                                      2004 FISMA Report
                         Agency:                         National Transportation Safety Board


                         Date Submitted:        09/28/2004

                         Submitted By:          OIG

                         Contact Information:
                                    Name:       Rebecca Leng
                                    E-mail:     Rebecca.C.leng@oig.dot.gov
                                    Phone:      202-366-1488


                                                To enter data in allowed fields, use password: fisma




Report No. FI-2004-097
                                                                                                                                                                                                      Enclosure 1
                                                                                                                                                                                                                    11
Section A: System Inventory and IT Security Performance
NOTE: ALL of Section A should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma


    A.1. By bureau (or major agency operating component), identify the total number of programs and systems in the agency and the total number of contractor operations or facilities. The agency CIOs
    and IG's shall each identify the total number that they reviewed as part of this evaluation in FY04. NIST 800-26, is to be used as guidance for these reviews.




    A.2. For each part of this question, identify actual performance in FY04 for the total number of systems by bureau (or major agency operating component) in the format provided below.


                                                                  A.1                                                                                     A.2

                                         A.1.a.               A.1.b.               A.1.c.                A.2.a.                 A.2.b.                A.2.c.                   A.2.d.                A.2.e.

                                    FY04 Programs         FY04 Systems        FY04 Contractor          Number of          Number of systems Number of systems Number of systems         Number of
                                                                               Operations or        systems certified         with security   for which security with a contingency systems for which
                                                                                 Facilities          and accredited           control costs   controls have been         plan       contingency plans
                                                                                                                          integrated into the     tested and                         have been tested
                                                                                                                            life cycle of the  evaluated in the
                                                                                                                                 system            last year



                                    Total  Number         Total     Number   Total      Number       Total   Percent of    Total    Percent of    Total     Percent of     Total   Percent of    Total Percent of
           Bureau Name             Number Reviewed       Number    Reviewed Number     Reviewed     Number     Total      Number      Total      Number       Total       Number     Total      Number   Total
   NTSB                                                                            1            1        0    #DIV/0!           0    #DIV/0!          0         #DIV/0!        0    #DIV/0!           0   #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
                                                                                                              #DIV/0!                #DIV/0!                    #DIV/0!             #DIV/0!               #DIV/0!
Agency Total                              0          0         0          0        1            1        0    #DIV/0!           0    #DIV/0!          0         #DIV/0!        0    #DIV/0!           0   #DIV/0!

Comments: This is the first year that NTSB has been asked to implement the FISMA reporting requirement. NTSB is in the process of identifying its program and systems. NSTB's
financial system is operated by the Department of Interior. An application control for this system has been reviewed by an independent audit firm. NTSB has agreed to finalize its
system inventory and develop a timetable for conducting C&A reviews by December 31, 2004.




       Report No. FI-2004-097
                                                                                                                                                                                               Enclosure 1
                                                                                                                                                                                                       12
                                                                                                      A.3


   A.3. Evaluate the degree to which the following statements reflect the status in your agency, by choosing from the responses provided in the drop down menu. If appropriate or necessary, include
   comments in the Comment area provided below.


                                                                 Statement                                                                                          Evaluation


        a. Agency program officials and the agency CIO have used appropriate methods to ensure that contractor provided services or
        services provided by another agency for their program and systems are adequately secure and meet the requirements of FISMA,                         Rarely, or 0-50% of the time
        OMB policy and NIST guidelines, national security policy, and agency policy.



        b. The reviews of programs, systems, and contractor operations or facilities, identified above, were conducted using the NIST self-
                                                                                                                                                            Rarely, or 0-50% of the time
        assessment guide, 800-26.



        c. In instances where the NIST self-assessment guide was not used to conduct reviews, the alternative methodology used
                                                                                                                                                            Rarely, or 0-50% of the time
        addressed all elements of the NIST guide.



        d. The agency maintains an inventory of major IT systems and this inventory is updated at least annually.                                           Rarely, or 0-50% of the time



        e. The OIG was included in the development and verification of the agency’s IT system inventory.                                                    Rarely, or 0-50% of the time



        f. The OIG and the CIO agree on the total number of programs, systems, and contractor operations or facilities.                                     Rarely, or 0-50% of the time


        g. The agency CIO reviews and concurs with the major IT investment decisions of bureaus (or major operating components) within
                                                                                                                                                            Rarely, or 0-50% of the time
        the agency.

                                                                 Statement                                                                                           Yes or No


        h. The agency has begun to assess systems for e-authentication risk.                                                                                             No


        i. The agency has appointed a senior agency information security officer that reports directly to the CIO.                                                       No



Comments: To meet the FISMA requirements, NTSB has initiated an effort to inventory the information systems used by program offices, and agreed to finalize the system inventory by December
31, 2004. In addition, the NTSB Chairman has designated an agency Chief Information Officer who is responsible for IT management and security.




      Report No. FI-2004-097
                                                                                                                                                                                    Enclosure 1
Section B: Identification of Significant Deficiencies
NOTE: ALL of Section B should be completed by BOTH the Agency CIO and the OIG.                                                                                                              13
To enter data in allowed fields, use password: fisma


   B.1. By bureau, identify all FY 04 significant deficiencies in policies, procedures, or practices required to be reported under existing law. Describe each on a separate row,
   and identify which are repeated from FY03. In addition, for each significant deficiency, indicate whether a POA&M has been developed. Insert rows as needed.


                                                                                         B.1.
                                                                                                   FY04 Significant Deficiencies
                                                            Total Number                                                                                              POA&M
                                               Total          Repeated                                                                                              developed?
             Bureau Name                      Number         from FY03                       Identify and Describe Each Significant Deficiency                       Yes or No
NTSB                                                    1              0   NTSB information security protgram                                                  No                   Yes




Agency Total                                           1               0


Comments: The lack of an agencywide information security program constitutes a significant deficiency. We recommend that this be reported to OMB and
Congress under FMFIA as a material internal control weakness.




   Report No. FI-2004-097
                                                                                                                                                              Enclosure 1
                                                                                                                                                                      14
Section C: OIG Assessment of the POA&M Process
NOTE: Section C should *ONLY* be completed by the OIG. The CIO should leave this section blank.
To enter data in allowed fields, use password: fisma
   C.1. Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency-wide plan
   of action and milestone (POA&M) process. This question is for IGs only. Evaluate the degree to which the following statements reflect the status in your
   agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the Comment area provided
   below.

                                                                                 C.1
                                                Statement                                                                       Evaluation

        a. Known IT security weaknesses, from all components, are incorporated into the POA&M.                Rarely, or 0-50% of the time

        b. Program officials develop, implement, and manage POA&Ms for systems they own and
                                                                                                              Rarely, or 0-50% of the time
        operate (systems that support their program or programs) that have an IT security weakness.

        c. Program officials report to the CIO on a regular basis (at least quarterly) on their remediation
                                                                                                              Rarely, or 0-50% of the time
        progress.

        d. CIO develops, implements, and manages POA&Ms for every system they own and operate (a
                                                                                                              Rarely, or 0-50% of the time
        system that supports their program or programs) that has an IT security weakness.

        e. CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.       Rarely, or 0-50% of the time

        f. The POA&M is the authoritative agency and IG management tool to identify and monitor
                                                                                                              Rarely, or 0-50% of the time
        agency actions for correcting information and IT security weaknesses.
        g. System-level POA&Ms are tied directly to the system budget request through the IT business
                                                                                                              Rarely, or 0-50% of the time
        case as required in OMB budget guidance (Circular A-11).

        h. OIG has access to POA&Ms as requested.                                                             Rarely, or 0-50% of the time

        i. OIG findings are incorporated into the POA&M process.                                              Rarely, or 0-50% of the time

        j. POA&M process prioritizes IT security weaknesses to help ensure that significant IT security
                                                                                                              Rarely, or 0-50% of the time
        weaknesses are addressed in a timely manner and receive appropriate resources.




Comments: NTSB has not conducted any security reviews of its information systems, or used POA&M to track security weaknesses for corrections.
NTSB has agreed to develop guidelines for security reviews and reporting POA&M by the end of December 31, 2004.




Report No. FI-2004-097
                                                                                                                                                 Enclosure 1

                                                                                                                                                         15


C.1 OIG Assessment of the Certification and Accreditation Process
Section C should only be completed by the OIG. OMB is requesting IGs to assess the agency’s certification and accreditation process in
order to provide a qualitative assessment of this critical activity. This assessment should consider the quality of the Agency’s certification
and accreditation process. Any new certification and accreditation work initiated after completion of NIST Special Publication 800-37 should
be consistent with NIST Special Publication 800-37. This includes use of the FIPS 199, “Standards for Security Categorization of Federal
Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
risk assessments and security plans. Earlier NIST guidance is applicable to any certification and accreditation work completed or initiated
before finalization of NIST Special Publication 800-37. Agencies were not expected to use NIST Special Publication 800-37 as guidance
before it became final.


                                    Statement                                                                Evaluation
     Assess the overall quality of the Agency's certification and accreditation
     process.

     Comments: NTSB has not performed security certification reviews on any of its
     information systems. NTSB has agreed to finalize its system inventory, and
     establish a schedule to complete Certification and Authorization (C&A) reviews
     on all systems in the system inventory by December 31, 2004.




Report No. FI-2004-097
                                                                                                                                                                      Enclosure 1

                                                                                                                                                                              16

Section D
NOTE: ALL of Section D should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma

   D.1. First, answer D.1. If the answer is yes, then proceed. If no, then skip to Section E. For D.1.a-f, identify whether agencywide security configuration
   requirements address each listed application or operating system (Yes, No, or Not Applicable), and then evaluate the degree to which these configurations are
   implemented on applicable systems. For example: If your agency has a total of 200 systems, and 100 of those systems are running Windows 2000, the
   universe for evaluation of degree would be 100 systems. If 61 of those 100 systems follow configuration requirement policies, and the configuration controls are
   implemented, the answer would reflect "yes" and "51-70%". If appropriate or necessary, include comments in the Comment area provided below.




   D.2. Answer Yes or No, and then evaluate the degree to which the configuration requirements address the patching of security vulnerabilities. If appropriate or
   necessary, include comments in the Comment area provided below.

                                                                           D.1. & D.2.                                         D.1.                D.2.


                                                                                                                              Yes,
                                                                                                                             No, or
                                                                                                                              N/A              Evaluation
D.1. Has the CIO implemented agencywide policies that require detailed specific security configurations and what is the
degree by which the configurations are implemented?                                                                            No
                 a. Windows XP Professional

                 b. Windows NT

                 c. Windows 2000 Professional


                 d. Windows 2000


                 e. Windows 2000 Server


                 f. Windows 2003 Server


                 g. Solaris


                 h. HP-UX


                 i. Linux

                 j. Cisco Router IOS

                 k. Oracle

                 l. Other. Specify: MS SQL
                                                                                                                             Yes or
                                                                                                                                               Evaluation
                                                                                                                              No
        D.2. Do the configuration requirements implemented above in D.1.a-f., address patching of security
        vulnerabilities?


Comments: OIG review identified weak configuration controls and a lack of timely installation of software patches. NTSB has agreed to
develop a procedure to implement Government security configuration standards on computer systems, and ensure timely patch
installations by March 31, 2005.




      Report No. FI-2004-097
                                                                                                                                                                                  Enclosure 1

                                                                                                                                                                                          17

Section E: Incident Detection and Handling Procedures
NOTE: ALL of Section E should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma

   E.1. Evaluate the degree to which the following statements reflect the status at your agency. If appropriate or necessary, include comments in the Comment area provided
   below.

                                                                                         E.1

                                                          Statement                                                                                   Evaluation


                 a. The agency follows documented policies and procedures for reporting incidents internally.                         Rarely, or 0-50% of the time

                 b. The agency follows documented policies and procedures for external reporting to law enforcement
                                                                                                                                      Rarely, or 0-50% of the time
                 authorities.
                 c. The agency follows defined procedures for reporting to the United States Computer Emergency Readiness
                                                                                                                                      Rarely, or 0-50% of the time
                 Team (US-CERT). http://www.us-cert.gov
                                                                                        E.2.
   E.2. Incident Detection Capabilities.
                                                                                                                                          Number of      Percentage of
                                                                                                                                           Systems       Total Systems
                         a. How many systems underwent vulnerability scans and penetration tests in FY04?
                         b. Specifically, what tools, techniques, technologies, etc., does the agency use to mitigate IT security risk?
                                  Answer:
                                     NTSB has installed firewall security as the first-level defense against cyber attacks from the Internet, and password security over remote
                                     access through telephone line (dial-up) connections.


Comments:


NTSB has not established vulnerability scanning and incident reporting capabilities. Using commercial scanning software, OIG identified over 250 high, 460
medium, and 4,500 low vulnerabilities on over 700 computers. NTSB is taking actions to fix the identified vulnerabilities, and has agreed to establish
vulnerability scanning and intrusion detection & reporting capabilities by June 30, 2005.




    Report No. FI-2004-097
                                                                                                                                                                          Enclosure 1

                                                                                                                                                                                  18

Section F: Incident Reporting and Analysis
NOTE: ALL of Section F should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma
   F.1. For each category of incident listed: identify the total number of successful incidents in FY04, the number of incidents reported to US-CERT, and the
   number reported to law enforcement. If your agency considers another category of incident type to be high priority, include this information in category VII,
   "Other". If appropriate or necessary, include comments in the Comment area provided below
   F.2. Identify the number of systems affected by each category of incident in FY04. If appropriate or necessary, include comments in the Comment area
   provided below.
                                                                          F.1., F.2. & F.3.
                                                                                   F.1.                                                  F.2.
                                                                     Number of Incidents, by category:                Number of systems affected, by category, on:



                                                                    F.1.a             F.1.b.         F.1.c.         F.2.a.          F.2.b.            F.2.c.
                                                                 Reported         Reported to US- Reported to  Systems with Systems without        How many
                                                                 internally           CERT            law     complete and up- complete and up-    successful
                                                                                                  enforcement   to-date C&A      to-date C&A incidents occurred
                                                                                                                                                    for known
                                                                                                                                                vulnerabilities for
                                                                                                                                                which a patch was
                                                                                                                                                    available?



                                                                                                                  Number of          Number of            Number of
                                                                Number of          Number of       Number of       Systems            Systems              Systems
                                                                Incidents          Incidents       Incidents       Affected           Affected             Affected
    I. Root Compromise                                                        0                0               0 NA                 NA               NA
    II. User Compromise                                                       0                0               0
    III. Denial of Service Attack                                             0                0               0
    IV. Website Defacement                                                    0                0               0
    V. Detection of Malicious Logic                                           0                0               0
    VI. Sucessful Virus/worm Introduction                                     0                0               0
    VII. Other                                                                0                0               0
                                                     Totals:                  0                0               0                0                0                    0



Comments: As part of the FISMA audit, OIG was able to obtain root-level control of 28 computers on NTSB networks. These activities were undetected
because NTSB has not established incident monitoring capabilities. NTSB has agreed to implement intrudsion detection capabilities by June 30, 2005.




   Report No. FI-2004-097
                                                                                                                                                                Enclosure 1

                                                                                                                                                                        19

Section G: Training
NOTE: ALL of Section G should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma

   G.1. Has the agency CIO ensured security training and awareness of all employees, including contractors and those employees with significant IT security
   responsibilities? If appropriate or necessary, include comments in the Comment area provided below.
                                                                                  G.1.
     G.1.a.                  G.1.b.                    G.1.c.                    G.1.d.                        G.1.e.                           G.1.f.

Total number of Employees that received IT Total number of Employees with significant             Briefly describe training provided       Total costs for
 employees in security awareness training employees with security responsibilities that                                                     providing IT
     FY04        in FY04, as described in   significant IT received specialized training,                                                security training in
                 NIST Special Publication      security     as described in NIST Special                                                        FY04
                         800-50            responsibilities Publications 800-50 and 800-                                                      (in $'s)
                                                                         16



                    Number        Percentage                            Number       Percentage



      430               0             0%                 14                 6             40%


                                                                                  G.2.
                                                                                Yes or No
   a. Does the agency explain policies regarding peer-to-peer
   file sharing in IT security awareness training, ethics training,                No
   or any other agency wide training?
                                                                      Yes           No

Comments: NTSB will provide security awareness training to all employees by December 2004 and specialized training to the employees with significant IT
security responsibilities by October 31, 2004.




Report No. FI-2004-097
                                                                    Enclosur e 2
                                                                              20


Enclosure 2. Scope and Methodology
To fulfill the requirements under FISMA, we reviewed the NTSB information
security program. We also provided input to NTSB’s FISMA report by answering
questions specified by OMB.

We interviewed managers in the Office of Chief Financial Officer, the Office of
Research and Engineering, and the Office of Transportation Disaster Assistance to
gather background information. We reviewed documents on security policies and
network diagrams and observed operations in the three computer
laboratories: the Material Research Laboratory, Vehicle Reorders Research
Laboratory, and Vehicle Performance Research Laboratory. By using commercial
scanning software, we performed a limited vulnerability assessment of NTSB
private networks and the firewall server.

We performed our work between July and September 2004 at NTSB Headquarters
in Washington, DC. The audit was conducted in accordance with Government
Auditing Standards prescribed by the Comptroller General of the United States,
and included such tests as we considered necessary to provide reasonable
assurance of detecting abuse or illegal acts.




Report No. FI-2004-097
                                                                        Enclosur e 3
                                                                                  21


Enclosure 3. Major Contributors to This Report

The following individuals contributed to this report.


   Name                                          Title

   Rebecca C. Leng                               Deputy Assistant Inspector
                                                  General for Information
                                                  Technology and Computer
                                                  Security

   Ping Z. Sun                                   Project Manager

   John M. Johnson                               Senior IT Specialist




Report No. FI-2004-097
                                22



Appendix. Management Comments




Report No. FI-2004-097
                         23




Report No. FI-2004-097
                         24




Report No. FI-2004-097
